No. 20-222
In the

Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., et al.,
Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, et al.,
Respondents.

On Writ of Certiorari to the United States
Court of A ppeals for the Second Circuit

BRIEF OF FORMER SEC OFFICIALS AND
LAW PROFESSORS AS AMICI CURIAE
IN SUPPORT OF PETITIONERS
Todd G. Cosenza
Counsel of Record
Charles D. Cording
Madeleine L. Tayer
Willkie Farr & Gallagher LLP
787 Seventh Avenue
New York, NY 10019
(212) 728-8000
tcosenza@willkie.com
Counsel for Amici Curiae
February 1, 2021
301231

A
(800) 274-3321 • (800) 359-6859

i

QUESTIONS PRESENTED
1.
Whether a defendant in a securities
class action may rebut the presumption of
classwide reliance recognized in Basic Inc. v.
Levinson, 485 U.S. 224 (1988), by pointing to the
generic nature of the allenged misstatements in
showing that the statements had no impact on the
price of the security, even though that evidence is
also relevant to the substantive element of
materiality.
2.
Whether a defendant seeking to rebut
the Basic presumption has only a burden of
production or also the ultimate burden of
persuasion.

ii
TABLE OF CONTENTS

QUESTIONS PRESENTED ..................................... i
TABLE OF AUTHORITIES .................................... iv
INTRODUCTION AND STATEMENT OF
INTEREST OF AMICI CURIAE ............................. 1
SUMMARY OF ARGUMENT .................................. 3
ARGUMENT ............................................................ 5
I.

FACTS AND PROCEDURAL HISTORY ..... 5

II.

THE COURT OF APPEALS’ PRICE
IMPACT
ANALYSIS
VIOLATES
HALLIBURTON II ........................................ 8
A.

Consideration of the Nature of
the Alleged Misstatements Falls
Squarely
Within
the
Compromise
Reached
in
Halliburton II ................................... 8

B.

This Court Has Previously
Rejected the Restricted View on
Price Impact Evidence Adopted
by the Court of Appeals ............... 12

C.

If Left Uncorrected, the Court
of
Appeals’
Decision
Will
Adversely
Impact
Public
Companies....................................... 16

D.

The Court of Appeals’ Decision
Will Render Class Certification
Merely a Formality in Virtually
Any Securities Action Premised

iii
on the Inflation Maintenance
Theory .............................................. 19
III.

A DEFENDANT SEEKING TO REBUT
THE BASIC PRESUMPTION BEARS
ONLY THE BURDEN OF PRODUCTION,
NOT THE BURDEN OF PERSUASION. ... 21

CONCLUSION ....................................................... 25

iv
TABLE OF AUTHORITIES
Cases

Page(s)

Alaska Elec. Pension Fund v. Pharmacia Corp.,
554 F.3d 342 (3d Cir. 2009) .............................. 20
In re Allstate Corp. Securities Litigation,
966 F.3d 595 (7th Cir. 2020) ....................... 15, 23
Amgen Inc. v. Conn. Ret. Plans & Tr. Funds,
568 U.S. 455 (2013) ....................................... 9, 13
Aranaz v. Catalyst Pharm. Partners Inc.,
302 F.R.D. 657 (S.D. Fla. 2014) ........................ 23
Basic Inc. v. Levinson,
485 U.S. 224 (1988) ................................. 3, 10, 21
Bing Li v. Aeterna Zentaris, Inc.,
324 F.R.D. 331 (D.N.J. 2018) ........................... 23
Dura Pharms., Inc. v. Broudo,
544 U.S. 336 (2005) ........................................... 19
Erica P. John Fund, Inc. v. Halliburton Co.,
309 F.R.D. 251 (N.D. Tex. 2015)....................... 23
Erica P. John Fund, Inc. v. Halliburton Co.,
563 U.S. 804 (2011) ............................................. 9
Erica P. John Fund, Inc. v. Halliburton Co.,
718 F.3d 423 (5th Cir. 2013), vacated
and remanded by 573 U.S. 258 (2014) ....... 13, 14

v
FindWhat Investor Group v. FindWhat.com,
658 F.3d 1282 (11th Cir. 2011) ......................... 20
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ....................................passim
IBEW Local 98 Pension Fund v. Best Buy Co.,
818 F.3d 775 (8th Cir. 2016) ............................. 22
KBC Asset Mgmt. NV v. 3D Sys. Corp.,
2017 WL 4297450 (D.S.C. Sept. 28, 2017) ....... 23
In re Pfizer Inc. Sec. Litig.,
819 F.3d 642 (2d Cir. 2016) .............................. 19
Schleicher v. Wendt,
618 F.3d 679 (7th Cir. 2010) ............................. 20
St. Mary’s Honor Ctr. v. Hicks,
509 U.S. 502 (1993) ........................................... 22
In re Vivendi, S.A. Sec. Litig.,
838 F.3d 223 (2d Cir. 2016) .............................. 20
Waggoner v. Barclays PLC,
875 F.3d 79 (2d Cir. 2017), cert. denied,
138 S. Ct. 1702 (2018) ....................................... 22

vi
Other Authorities
Donald C. Langevoort, Judgment Day for
Fraud-on-the-Market: Reflections on
Amgen and the Second Coming of
Halliburton, 57 ARIZ. L. REV. 37, 46-47
(2015) ................................................................... 9

1

INTRODUCTION AND STATEMENT OF
INTEREST OF AMICI CURIAE1
The amici curiae are a group of individuals who
have a strong interest in these issues: former officials
of the United States Securities and Exchange
Commission and law professors whose scholarship
and teaching focuses on the federal securities laws.
Although each individual amicus may not endorse
every statement herein,2 this brief reflects the
consensus of the amici that this case presents
exceptionally important questions on the Basic
presumption and a defendant’s right to rebut the
same, the lower courts’ resolution of these issues was
incorrect and threatens to eviscerate that right, and
therefore, this Court should reverse the order
affirming the district court’s certification of the class.
In alphabetical order, the amici curiae are:


Brian G. Cartwright – Former General
Counsel of the U.S. Securities and Exchange
Commission from 2006 to 2009;

1 No counsel for a party authored this brief in whole or in part,
and no person or entity, other than the amici curiae or their
counsel, contributed money to fund its preparation or
submission. All parties have consented to the filing of this
brief pursuant to this Court’s Rule 37.3(a).
2 In addition, the views expressed by the amici here do not
necessarily reflect the views of the institutions with which
they are or have been associated, whose names are included
solely for purposes of identification.

2


Ronald J. Colombo – Professor of Law and Dean
for Distance Education at the Maurice A.
Deane School of Law at Hofstra University;



Elizabeth Cosenza – Associate Professor and
Area Chair, Law and Ethics at Fordham
University;



Charles C. Cox – Former Commissioner of the
U.S. Securities and Exchange Commission
from 1983 to 1989;



Richard A. Epstein – The Peter and Kirsten
Bedford Senior Fellow at the Hoover
Institution, and the Laurence A. Tisch
Professor of Law at New York University
School of Law;



The Honorable Joseph A. Grundfest – William
A. Franke Professor of Law and Business at
Stanford Law School, and Commissioner of the
U.S. Securities and Exchange Commission
from 1985 to 1990;



Simon Lorne – Former General Counsel of the
U.S. Securities and Exchange Commission
from 1993 to 1996;



Paul G. Mahoney – David and Mary Harrison
Distinguished Professor of Law at the
University of Virginia School of Law, and Dean
of the same from 2008 to 2016;



Adam C. Pritchard – The Frances and George
Skestos Professor of Law at the University of
Michigan Law School;



Amanda M. Rose – Professor of Law at
Vanderbilt University Law School and

3
Professor of Management at Vanderbilt
University Owen Graduate School of
Management;


Matthew Turk – Assistant Professor of
Business Law and Ethics at Indiana
University’s Kelley School of Business;



Andrew N. Vollmer – Senior Affiliated Scholar,
Mercatus Center at George Mason University;
former Professor of Law, General Faculty,
University of Virginia School of Law; former
Deputy General Counsel of the U.S. Securities
and Exchange Commission; and



Karen E. Woody – Associate Professor of Law
at Washington & Lee University School of Law.
SUMMARY OF ARGUMENT

The questions presented in this appeal are
extremely important to securities class actions. At
stake here is whether defendants can rebut the fraudon-the-market presumption created in Basic Inc. v.
Levinson, 485 U.S. 224 (1988), in opposing class
certification, as squarely required by this Court in
Halliburton Co. v. Erica P. John Fund, Inc., 573 U.S.
258 (2014) (“Halliburton II”). In his vigorous dissent
from the court of appeals’ panel decision affirming the
district court’s granting of class certification, Judge
Sullivan explained that by precluding consideration of
the generic nature of the challenged statements in
assessing price impact, the court of appeals’ decision
has made Basic “truly irrebuttable,” and class
certification “all but a certainty in every case.” (Pet.

4
App. 44a.) As detailed below, this result eliminates
the careful balance first recognized in Basic and
affirmed in Halliburton II. There, this Court did not
reverse the judge-made Basic presumption. It held,
however, that defendants must be afforded the
opportunity to show at class certification that alleged
misstatements did not have price impact—the
premise of the efficient market theory underlying
Basic. To remediate the significant consequences of
the court of appeals’ nullification of Halliburton II in
the leading circuit for securities cases and the center
of the nation’s financial markets, this Court should
reverse the court of appeals’ decision.
Also at issue in this case is whether a defendant
seeking to rebut the Basic presumption has only a
burden of production—as it should under Federal
Rule of Evidence 301—or also the ultimate burden of
persuasion. This Court should make clear that Rule
301 applies, as it does to all presumptions for which
no federal statute provides otherwise.
This case takes on heightened importance amid
the emerging trend of securities class action plaintiffs
relying on the novel “inflation maintenance” theory.
That theory, never before sanctioned by this Court,
posits that a class may be certified where an alleged
misstatement does not itself introduce inflation into
the stock price, but simply maintains inflation
previously introduced through some other, even nonfraudulent, means. Coupling such an expansive view
of price impact with such a restrictive view of the right
to rebutting price impact recognized in Halliburton II
ensures almost automatic class certification in
inflation maintenance cases. That is, a class would be

5
certified any time a public company makes generic or
aspirational disclosures about mitigating risk or
engaging in best practices—as nearly all public
companies do—and then suffers a stock price drop.
That cannot be consistent with the aim and holding of
Halliburton II. Simply put, if the court of appeals’
decision stands, companies will be almost defenseless
against plaintiffs’ class certification arguments, which
will become de facto irrebuttable.
ARGUMENT
I.

FACTS AND PROCEDURAL HISTORY

In 2010, Respondents brought this securities
action on behalf of a putative class of Goldman Sachs
shareholders against Petitioners in the United States
District Court for the Southern District of New York,
alleging violations of Section 10(b) of the Securities
Exchange Act of 1934 and Rule 10b-5 (as well as
Section 20(a), the provision for “control person”
liability). Respondents alleged that Petitioners made
material misrepresentations with respect to two
categories of statements: (1) aspirational goals,
including statements such as “[o]ur clients’ interests
always come first” and “[i]ntegrity and honesty are at
the heart of our business”; and (2) warnings about the
risks of conflicts of interest, including statements such
as “[c]onflicts of interest are increasing and a failure
to appropriately identify and deal with conflicts of
interest could adversely affect our businesses.” J.A.
31–33, 27–29; D. Ct. Dkt. 136, at 5–6. Respondents
alleged that the challenged statements were

6
fraudulent because Goldman Sachs had undisclosed
client conflicts with respect to some of their financial
instruments, and subsequent news reports of
government enforcement activity relating to alleged
conflicts of interest demonstrated the falsity of the
challenged statements to the market. Petitioners
moved to dismiss, arguing that the alleged
misstatements were immaterial as a matter of law.
The court denied the motion in relevant part. (Pet.
App. 7a.)
Thereafter, Respondents moved to certify the
class, invoking the Basic presumption and relying on
the inflation maintenance theory, which (as described
above) purportedly makes certain statements
actionable merely because they maintained an
already inflated stock price. To rebut the Basic
presumption, Petitioners presented evidence showing
that the alleged misstatements had no price impact.
First, Petitioners argued that the generic,
aspirational nature of the alleged misstatements
could not have affected the stock price. Second,
Petitioners showed that Goldman Sachs’ stock price
had not declined in response to news reports on 36
separate dates before the purported “corrective
disclosures” despite the fact that those reports
included allegations about Goldman Sachs’ conflicts of
interest. In fact, Petitioners’ experts showed that the
stock price drops on the “corrective disclosure” dates
were caused by investor concerns over the potential
impact of government enforcement activity, not by the
revelation of the falsity of the challenged statements,
and that none of the challenged statements were
mentioned in any of the analyst reports on Goldman

7
Sachs during the Class Period. The district court
granted Respondents’ motion for class certification.
(Pet. App. 79a-94a.)
The court of appeals granted Petitioners’ petition
for an interlocutory appeal and vacated the district
court’s order, holding that the district court failed to
apply the preponderance of the evidence standard for
determining whether Petitioners rebutted the Basic
presumption, while rejecting Petitioners’ argument
that Rule 301 applies. (Pet. App. 60a-78a.) The court
of appeals also held that the district court erred by
refusing to consider Petitioners’ evidence that
Goldman Sachs’ generic statements had no price
impact because the stock price had not reacted to the
news reports of client conflicts on 36 dates, reasoning
that “[a]lthough price impact touches on materiality,
which is not an appropriate consideration at the class
certification stage, it ‘differs from materiality in a
crucial respect’ ” because it “refers to the effect of a
misrepresentation on a stock price.” (Pet. App. 76a77a (quoting Halliburton II, 573 U.S. at 282.))
On remand, Petitioners detailed the generic
nature of the statements, and presented economic and
empirical evidence showing that the challenged
statements had no price impact and that the
decreases in stock price following the “corrective
disclosures” were not attributable to the alleged
misstatements. Despite that evidence, the district
court again granted Respondents’ motion for class
certification. (Pet. App. 47a-59a.)
The court of appeals then granted Petitioners’
petition for an interlocutory appeal and affirmed the
decision below to certify the class, finding that

8
Petitioners failed to rebut the Basic presumption.
(Pet. App. 1a-46a.) The court rejected Petitioners’
argument, based on Halliburton II, that the district
court erred in refusing to consider the generic nature
of the statements as evidence that such statements
had no impact on the stock price. (Pet. App. 19a-27a.)
Viewing Petitioners’ argument as an attempt to
impermissibly “smuggl[e] materiality into Rule 23,”
the
court
stated
that
“[w]hether
alleged
misstatements are too general to demonstrate price
impact has nothing to do with the issue of whether
common questions predominate over individual ones.”
(Pet. App. 22a, 23a.) Characterizing Petitioners’
burden as a “heavy” one, the court of appeals
explained that the Basic presumption could be
rebutted only by showing that the “entire price decline
on the corrective-disclosure dates was due to
something other than its alleged misstatements.”
(Pet. App. 28a & n.18.) The petition for a writ of
certiorari was filed after Petitioners’ petition for
rehearing was denied on June 15, 2020. (Pet. App.
95a-96a.)
II.

THE COURT OF APPEALS’ PRICE
IMPACT ANALYSIS VIOLATES
HALLIBURTON II.
A.

Consideration of the Nature of the
Alleged Misstatements Falls
Squarely Within the Compromise
Reached in Halliburton II.

In affirming the district court’s legally and
factually flawed class certification order, the court of

9
appeals rendered this Court’s decision in Halliburton
II a de facto nullity. Halliburton II reflected a
compromise between the two diametrically opposed
arguments represented in that case: securities class
action defendants urged that Basic’s fraud-on-themarket presumption be overruled, while securities
class action plaintiffs urged that defendants not have
any opportunity to rebut the fraud-on-the-market
presumption at class certification.3
Since this Court’s creation of the fraud-on-themarket presumption in Basic, courts have struggled
with the presumption’s practical application. In Erica
P. John Fund, Inc. v. Halliburton Co., 563 U.S. 804
(2011) (“Halliburton I”), this Court addressed some of
the ambiguity surrounding Basic by rejecting the
argument that plaintiffs must affirmatively show loss
causation to invoke the fraud-on-the-market
presumption. The Court reasoned that loss causation
did not relate to whether an investor had relied on a
misrepresentation “either directly or presumptively
through the fraud-on-the-market theory.” Id. at 813.
Two years later, in Amgen Inc. v. Conn. Ret. Plans &
Tr. Funds, 568 U.S. 455 (2013), this Court seemingly
leaned further in the direction of securities fraud class
action plaintiffs, holding that plaintiffs need not
establish materiality and defendants may not rebut
materiality prior to class certification.

3 See Donald C. Langevoort, Judgment Day for Fraud-on-theMarket: Reflections on Amgen and the Second Coming of
Halliburton, 57 ARIZ. L. REV. 37, 46-47 (2015).

10
With Halliburton I and Amgen handed down only
two years apart, this Court appeared to be steadily
lowering the bar for securities fraud class action
plaintiffs to advance their cases. That seemingly
changed in Halliburton II. There, Chief Justice
Roberts (joined by Justices Kennedy, Ginsburg,
Breyer, Sotomayor and Kagan), while reaffirming the
viability of the fraud-on-the-market presumption,
provided much-needed clarity on how to apply the
fraud-on-the-market presumption in practice. The
middle ground established by the Supreme Court in
Halliburton II provides that defendants in securities
fraud class actions must be afforded an opportunity
to rebut the fraud-on-the-market presumption of
reliance “with evidence of a lack of price impact . . .
before class certification.” 573 U.S. at 277. Although
the majority opinion failed to overturn Basic and held
that plaintiffs need not prove price impact to first
invoke the fraud-on-the-market presumption, the
Court also made clear that defendants are entitled to
an opportunity to rebut the Basic presumption at
class certification by presenting evidence that severs
the link between the alleged misrepresentations and
the stock price. Id. at 279–80. Significantly, in so
holding, the Halliburton II Court cited Basic’s own
expansive articulation of the standard for securities
fraud class action defendants to break that link: “[a]ny
showing that severs the link between the alleged
misrepresentation and . . . the price received (or paid)
by the plaintiff” for the shares in question. Id. at 281
(citing Basic, 485 U.S. at 248) (emphasis added). No
qualification was placed on the defendants’ rebuttal
right. In particular, the Court did not preclude

11
consideration of price-impact evidence that could also
implicate the other elements of a Rule 10b-5 claim
that had been addressed in its recent decisions, such
as loss causation (Halliburton I) or materiality
(Amgen).
This Court’s decision in Halliburton II thus
reflects a carefully constructed compromise between
the apparently plaintiff-friendly trend in Halliburton
I and Amgen, and the defendants’ contention in
Halliburton II that Basic be overruled entirely. In
many ways, this compromise represents a recognition
of what was implicit in Basic: (i) the presumption of
fraud-on-the-market is exactly that, only a
presumption, and as such, is rebuttable; and (ii)
evidence introduced by defendants demonstrating the
absence of price impact before class certification will
break the link between the challenged statements and
the stock price, thereby defeating that presumption.
See 573 U.S. at 268–69.
By refusing to consider evidence that should have
served to rebut the Basic presumption under
Halliburton II, the court of appeals’ decision here is at
odds with this compromise. The court of appeals
erroneously barred Petitioners from relying on the
generic and aspirational nature of the alleged
misstatements to show a lack of price impact,
reasoning that such inquiry is merely a “means for
smuggling materiality into Rule 23.” (Pet. App. 21a,
n.11 & 22a.) Nevertheless, as Judge Sullivan astutely
noted in his dissent, “[t]he mere fact that such an
inquiry ‘resembles’ an assessment of materiality does
not make it improper.” (Pet. App. 45a.) As mandated
by Halliburton II, a defendant is entitled to rebut the

12
Basic presumption at the class certification stage with
any
evidence
showing
that
an
alleged
misrepresentation did not actually affect the stock’s
price, regardless of whether it is also “highly relevant
at the merits stage.” 573 U.S. at 283. Moreover, this
Court made it abundantly clear in Halliburton II that
“[there] is no reason to artificially limit the inquiry at
[that] stage.” Id. at 262. Therefore, the nature of the
alleged misstatements should have been considered
by the court of appeals in determining whether
Petitioners rebutted the Basic presumption, as such
rebuttal evidence indisputably falls squarely within
the compromise reached in Halliburton II.
B.

This Court Has Previously Rejected
the Restricted View on Price
Impact Evidence Adopted by the
Court of Appeals.

The court of appeals incorrectly viewed evidence
about the generic nature of challenged statements as
“a means for smuggling materiality into Rule 23” in
violation of Amgen. (Pet. App. 21a, n.11 & 22a.) But
nothing in Amgen prohibits a court from considering
at the class certification stage the generality or
specificity of the alleged misstatements, which
directly bears on price impact. (Pet. App. 45a.) In
fact, the generality of an alleged misstatement is
powerful evidence of a lack of price impact. As
explained by Petitioners’ expert, Dr. Laura Starks,
generic statements like those at issue here are
pervasive in company communications. J.A. 599-605,
626. Accordingly, analysts and institutional investors
are unlikely to consider a company’s generic and

13
aspirational statements in valuing a company’s stock,
which is exactly what happened here. As Judge
Sullivan recognized, the challenged statements are so
generic that “no reasonable investor would have
attached any significance” to them. (Pet. App. 44a45a.) Moreover, Dr. Starks found that “analysts did
not view [the challenged] statements as containing
information pertinent to an investment decisionmaking process.” J.A. 599-605, 626. In imposing a
blanket prohibition against such evidence, the court
of appeals misconstrued Amgen in much the same
manner as the Fifth Circuit in Halliburton II, which
prompted this Court’s reversal in that case.
In Amgen, this Court held that proof of materiality
is not a prerequisite to certification of a securities
fraud class action. See 568 U.S. at 459. Even though
materiality is a precondition to Basic’s fraud-on-themarket presumption, the Court reasoned that, “[a]s to
materiality . . ., the class is entirely cohesive. It will
prevail or fail in unison.” Id. at 460. In so ruling, the
Amgen majority also affirmed the district court’s
refusal to consider Amgen’s “truth-on-the-market”
rebuttal evidence at the class certification stage. Id.
at 481.
On this basis, between Halliburton I and
Halliburton II, the Fifth Circuit concluded that
defendants could not offer evidence of a lack of price
impact at class certification. Erica P. John Fund, Inc.
v. Halliburton Co., 718 F.3d 423 (5th Cir. 2013),
vacated and remanded by 573 U.S. 258 (2014).
Specifically, the Fifth Circuit refused to consider
defendants’ expert report conclusively showing that
there was no statistically significant impact on the

14
stock’s price on 20 of the 22 misrepresentation dates,
and that the price increases on the two remaining
misrepresentation dates were not caused by any of the
alleged misrepresentations. Applying Amgen, the
Fifth Circuit reasoned that price impact evidence may
not be considered because, like materiality, price
impact does not bear on common question
predominance under Federal Rule of Civil Procedure
23. Id. at 432.
The Fifth Circuit made the same error as the court
of appeals did here: because “[t]he price impact
evidence considered here is both similar to and offered
for much the same reason as the materiality evidence”
that this Court in Amgen held should not be
considered at class certification, the Fifth Circuit
refused to credit Halliburton’s contention that it was
challenging reliance, not materiality, through its
truth-on-the-market defense. Id. at 434 n.10. This
Court rejected the Fifth Circuit’s analysis in
Halliburton II.
There, this Court explained that, even though the
same issues counseling against considering
materiality evidence could also apply to weighing
price impact evidence at class certification, “[p]rice
impact is different. The fact that a misrepresentation
‘was reflected in the market price at the time of the
transaction’—that it had price impact—is ‘Basic’s
fundamental premise.’ It thus has everything to do
with the issue of predominance at the class
certification stage.” Halliburton II, 573 U.S. 258, 281,
283 (internal citation omitted).
Even though the same evidence often bears on
price impact and materiality, Halliburton II holds

15
that, notwithstanding Amgen, price impact evidence
may be considered at class certification, not for the
purpose of rebutting materiality or rearguing a court’s
decision on the sufficiency of the complaint’s pleading
of materiality, but to demonstrate a lack of price
impact and thereby to rebut the Basic presumption.
Indeed, the Seventh Circuit recently held in In re
Allstate Corp. Securities Litigation, 966 F.3d 595 (7th
Cir. 2020), that the district court there failed to
adhere to Halliburton II’s holding when it failed to
consider permissible price impact evidence at class
certification. Noting the “challenge” courts face in
reconciling Halliburton I, Amgen, and Halliburton II,
the Seventh Circuit properly permitted defendants to
introduce price impact rebuttal evidence at the class
certification stage, including an expert report showing
that there was “no statistically significant increase in
Allstate’s stock price following any of the alleged
misrepresentations.” Id. at 611. The Seventh Circuit
held that such evidence—similar to the evidence
profferred by Petitioners here—should have been
considered by the district court as price-impact
rebuttal evidence, even though it undoubtedly
implicated the separate element of materiality. Id.
The Seventh Circuit’s approach is more consistent
with Halliburton II. Any other reading of these cases
creates a conflict between this Court’s Amgen and
Halliburton II rulings, requiring district courts to
undertake the impossible task of parsing permissible
price impact evidence from impermissible materiality
evidence. As Judge Sullivan persuasively observed, “I
don’t believe that such rigid compartmentalization is
possible[.]” (Pet. App. 45a.) Without an affirmation

16
from this Court that, under Halliburton II, price
impact evidence may be presented at the class
certification stage to rebut the Basic presumption,
even if the evidence also implicates materiality, lower
courts will continue to violate Halliburton II and deny
defendants the opportunity to rebut the Basic
presumption with permissible evidence. That is,
although price impact resembles materiality, this
Court’s precedent directs courts “to consider the
nature of the alleged misstatements in assessing
whether and why” there was no price impact. (Id. at
44a.)
C.

If Left Uncorrected, the Court of
Appeals’ Decision Will Adversely
Impact Public Companies.

The court of appeals’ decision impermissibly limits
the price impact evidence that district courts can
consider at class certification. Here, the court of
appeals barred consideration of the generic nature of
the alleged misstatements, reasoning that the issue
should be dealt with at the pleading stage. (Pet. App.
20a n.10.) But that is often not what happens in
practice. At the pleading stage, plaintiffs regularly
argue that materiality is a mixed question of law and
fact, and accordingly, cases dealing with generic
statements oftentimes are not resolved on materiality
grounds at the pleading stage. This Court should
make clear that district courts must consider all
relevant price impact evidence (even if it overlaps
with materiality) at the Rule 23 stage.

17
The court of appeals’ decision here risks draconian
practical consequences because publicly traded
companies routinely include generic statements of
corporate principle similar to those at issue here in
their public filings. The publication of these anodyne
statements combined with a later stock price drop
should not give rise to automatic class certification,
even if shareholders happen to lose money.
These risks are particularly heightened during the
ongoing COVID-19 crisis, where aspirational
statements about best practices amid a fast-moving
global pandemic have already been weaponized by
plaintiffs and turned into a predicate for securities
fraud class actions, as securities markets around the
world are extremely volatile. Most significantly, a
pharmaceutical company at the forefront of COVID19 research is facing a shareholder class action
lawsuit following the disclosure of adverse news from
a highly-consequential, yet highly-expedited clinical
trial. Just last week, a putative securities class action
lawsuit was filed in the U.S. District Court for the
Southern District of New York against U.K.
pharmaceutical company AstraZeneca PLC and its
executives based upon the disclosure of setbacks in its
effort to develop a COVID-19 vaccine. See Compl.,
Monroe Cty. Emps. Ret. Sys. v. AstraZeneca PLC, et
al., No. 21-cv-722-JPO (S.D.N.Y Jan. 26, 2021) (ECF
No. 1). The complaint predicates allegations of
securities fraud on, inter alia, statements by the
AstraZeneca CEO pledging to “uphold the integrity of
the scientific process” and noting that “[w]e continue
to lead across multiple fronts in the global response to
the COVID-19 pandemic.” Id. at 12, 15.

18
Further, companies in the travel industry that
have made generic disclosures about business
principles during the COVID-19 outbreak now face
investor securities class action lawsuits after a stock
price drop. See, e.g., Compl. at 14, City of Riviera
Beach Gen. Emps. Ret. Sys. v. Royal Caribbean
Cruises Ltd., et al., No. 20-cv-24111-KMW (S.D. Fla.
Oct. 7, 2020) (ECF No. 1) (challenged disclosures by
cruise company defendant include statement that it
“initiated strong safeguards to help contain the
spread of the disease and protect [its] guests and
crew”); Consol. Am. Compl. at 23, 34, Douglas v.
Norwegian Cruise Lines, et al., No. 20-21107-CivSCOLA (S.D. Fla. Jul. 31, 2020) (ECF No. 56)
(challenged statements by cruise company defendant
include that it was “working tirelessly to do what is
right for [its] guests, crew and shareholders while
protecting the equity of [its] brands” and “plac[es] the
utmost importance on the safety of our guests and
crew”).
Granting class certification based on generic
statements of corporate principle would be contrary to
this Court’s precedent and congressional intent as
reflected in the Private Securities Litigation Reform
Act. See Halliburton II, 573 U.S. at 277 (explaining
that the PSLRA was enacted “to combat perceived
abuses in securities litigation with heightened
pleading requirements, limits on damages and
attorney’s fees, a ‘safe harbor’ for certain kinds of
statements, restrictions on the selection of lead
plaintiffs in securities class actions, sanctions for
frivolous litigation, and stays of discovery pending
motions to dismiss”); see also Dura Pharms., Inc. v.

19
Broudo, 544 U.S. 336, 345 (2005) (“The securities
statutes seek to maintain public confidence in the
marketplace . . . by deterring fraud, in part, through
the availability of private securities fraud actions. . . .
But the statutes make these latter actions available,
not to provide investors with broad insurance against
market losses, but to protect them against those
economic losses that misrepresentations actually
cause.”). The private right of action under the
securities law is not intended to function as a
guarantee against stock price declines, especially in
times of crisis.
D.

The Court of Appeals’ Decision Will
Render Class Certification Merely a
Formality in Virtually Any
Securities Action Premised on the
Inflation Maintenance Theory.

The importance of the fact that Respondents’
claims are premised on the inflation maintenance
theory cannot be understated.
The inflation
maintenance theory permits plaintiffs to argue that
certain statements can be actionable if they merely
maintained an already inflated stock price. See In re
Pfizer Inc. Sec. Litig., 819 F.3d 642, 659 (2d Cir. 2016).
Here, the court of appeals permitted the application of
the inflation maintenance theory to generalized
statements of corporate principle, an unprecedented
expansion of an already expansive theory.
Accordingly, the court of appeals rendered class
certification a mere formality in virtually any

20
securities class action premised on the inflation
maintence theory.
The only two circumstances in which any court had
previously applied the inflation maintenance theory
involved alleged misstatements that (1) were unduly
optimistic statements about specific, material
financial or operational information made to stop a
stock price from declining;4 or (2) falsely conveyed that
the company had met market expectations about a
specific, material financial metric, product, or event.5
In any event, whatever the merits or flaws of this
theory, general statements that companies routinely
make in corporate disclosures, like the ones at issue
in this case, cannot “maintain” an inflated stock price.
Plaintiffs’ reliance on the theory comes as no
surprise given the recent surge in inflation
maintenance cases filed by securities class action
plaintiffs across the country, and defendants’
extraordinarily low success rates in rebutting the
Basic presumption in such cases. (Pet. App. 19a n.9.)
This trend makes the inflation maintenance theory
susceptible to abuse at class certification, especially if
it is transformed into a catch-all path for securities
fraud plaintiffs to certify investor classes based
simply on a stock drop, even when the challenged

4 See, e.g., In re Vivendi, S.A. Sec. Litig., 838 F.3d 223 (2d Cir.
2016); Schleicher v. Wendt, 618 F.3d 679 (7th Cir. 2010).
5 See, e.g., FindWhat Inv. Grp. v. FindWhat.com, 658 F.3d 1282
(11th Cir. 2011); Alaska Elec. Pension Fund v. Pharmacia
Corp., 554 F.3d 342 (3d Cir. 2009).

21
statements were too general to cause any price
impact. If allowed to become a catch-all in this way,
it would be in direct contradiction to this Court’s
precedent, see Halliburton II, 573 U.S. 258, and would
result in effectively eliminating the price impact
requirement altogether.
Given the risk of abuse of the inflation
maintenance theory at class certification, this Court
should reverse the court of appeals’ decision and hold
that courts must consider any relevant evidence
offered to show that an alleged misrepresentation had
no price impact. Otherwise, plaintiffs nationwide will
continue to benefit from the Basic presumption, which
depends on price impact, even in cases like this where,
despite Respondents’ invocation of the inflation
maintenance theory, there is no evidence of price
impact.
III.

A DEFENDANT SEEKING TO REBUT
THE BASIC PRESUMPTION BEARS
ONLY THE BURDEN OF PRODUCTION,
NOT THE BURDEN OF PERSUASION.

At issue in this case is also the question of how a
defendant in a securities class action must empirically
rebut the Basic presumption. Neither Basic nor
Halliburton II spelled out the precise burden of proof
that each must party bear. Nor is that surprising:
presumptions are specifically controlled by Rule 301,
which the Court in Basic expressly cited, indicating
that it is the proper procedural device “for allocating
the burdens of proof between parties.” 485 U.S. at
245.

22
Indeed, the Federal Rules of Evidence, by their
terms, apply to all “civil cases and proceedings” in
United States courts. FED. R. EVID. 1101(b). Rule 301
plainly applies to presumptions in all civil cases
“unless a federal statute . . . provide[s] otherwise.”
FED. R. EVID. 301; see St. Mary’s Honor Ctr. v. Hicks,
509 U.S. 502, 507 (1993) (recognizing that Rule 301
governs “all presumptions”). In this case, there is no
such federal statute. Therefore, Rule 301 applies.
Rule 301 makes clear that the party against whom
a presumption is directed only bears “the burden of
producing evidence to rebut the presumption,” with
the “burden of persuasion . . . remaining on the party
who had it originally.” FED. R. EVID. 301 (emphasis
added). Therefore, when the plaintiff makes a prima
facie showing of market efficiency, the burden of
production shifts to the defendant to present evidence
showing a lack of price impact, but the burden of
persuasion always rests with the plaintiff. See IBEW
Local 98 Pension Fund v. Best Buy Co., 818 F.3d 775,
782 (8th Cir. 2016). It was thus not incumbent upon
Petitioners here to prove the absence of price impact.
Given the evident applicability of Rule 301, the
court of appeals erred when it applied the following
burden-shifting standard: while the plaintiff “bears
the initial burden of demonstrating that the
prerequisites for the Basic presumption are met,” once
this showing is made, the burden of persuasion “shifts
to the defendant to rebut the presumption” by a
preponderance of the evidence. (Pet. App. 27a-28a.).
See also Waggoner v. Barclays PLC, 875 F.3d 79, 102
(2d Cir. 2017), cert. denied, 138 S. Ct. 1702 (2018).
The Seventh Circuit has similarly erred in holding

23
that the burden of persuasion to rebut the Basic
presumption shifts to the defendant once a plaintiff
has met its burden. See In re Allstate Corp. Securities
Litigation, 966 F.3d 595 (7th Cir. 2020).
In contrast, the Eighth Circuit properly applied
Rule 301 in Best Buy, requiring only that the
defendant “come forward with evidence showing a
lack of price impact” once plaintiffs presented a prima
facie case that the Basic presumption applied. 818
F.3d at 782. District courts in other circuits have also
applied Rule 301. See, e.g., Bing Li v. Aeterna
Zentaris, Inc., 324 F.R.D. 331, 344 (D.N.J. 2018)
(applying Rule 301 and requiring only that defendant
produce evidence to rebut presumption); KBC Asset
Mgmt. NV v. 3D Sys. Corp., 2017 WL 4297450, at *8
(D.S.C. Sept. 28, 2017) (applying Rule 301 and
requiring only that defendants “come forward” with
evidence showing a lack of price impact); but see Erica
P. John Fund, Inc. v. Halliburton Co., 309 F.R.D. 251,
260 (N.D. Tex. 2015) (shifting burden of persuasion to
defendants); Aranaz v. Catalyst Pharm. Partners Inc.,
302 F.R.D. 657, 673 (S.D. Fla. 2014) (same).
The decision below incorrectly disregarded the
burdens prescribed in Rule 301, which is clearly
applicable to the Basic presumption. And, in effect,
the Second Circuit’s burden-shifting standard further
entrenches the Basic presumption’s irrebutability
problem.
Placing the burden of persuasion on
defendants while disallowing certain evidence bearing
directly on price impact puts defendants in a catch-22:
they must persuade, but are barred from presenting
evidence they need to do so. Simply put, defendants
in the Second Circuit are burdened with a standard

24
they virtually cannot meet, and should not have to
meet in the first place. As such, this Court should
clarify that Rule 301 applies to the Basic
presumption, and that the burden of persuasion never
shifts to the defendants in such cases.

25

CONCLUSION
For the foregoing reasons, the judgment of the
court of appeals should be reversed.
In the
alternative, the judgment should be vacated and the
case remanded for further proceedings.

Respectfully submitted,

Todd G. Cosenza
Counsel of Record
Charles D. Cording
Madeleine L. Tayer
WILLKIE FARR &
GALLAGHER LLP
787 Seventh Avenue
New York, NY 10019
tcosenza@willkie.com
(212) 728-8000
Counsel for Amici

February 1, 2021

